Ofﬁce of the Inspector General
    Semiannual report to the congress
        October 1, 2003 Through March 31, 2004
the government printing ofﬁce
For more than a century, the mission of the Gov-
ernment Printing Ofﬁce (GPO) under the public
printing and documents statutes of Title 44, U.S.
Code, has been to fulﬁll the needs of the Federal
Government for information products and to dis-
tribute those products to the public. As GPO
transforms into a 21st century digital informa-
tion processing facility, it remains dedicated to
producing, procuring and disseminating Gov-
                                                       the ofﬁce of inspector general
ernment information products in a wide range           The Ofﬁce of the Inspector General was created
of formats including print, CD-ROM, and online.        by the Government Printing Ofﬁce Inspector Gen-
GPO’s electronic and traditional technologies en-      eral Act of 1988, Title II of Public Law 100-504
able it to facilitate the re-engineering of informa-   (October 18, 1988).
tion products to satisfy the Government’s chang-
ing information requirements, and to preserve and      OIG Mission
protect public access to Government information.       The Mission of the OIG is to provide leadership
• GPO provides print and electronic informa-           and coordination, and to recommend policies to
   tion products and services to Congress and Fed-     prevent and detect fraud, waste, abuse and mis-
   eral agencies. For Congress, GPO maintains          management, as well as to promote economy,
   a capability to fully support the information       efﬁciency, and effectiveness in GPO’s program
   product needs of the legislative process.           and operations. The OIG offers an independent
• GPO disseminates Government information              and objective means of keeping the Public Printer
  to the public in print and electronic formats        and the Congress fully informed about problems
  and to Federal depository libraries nationwide       and deﬁciencies relating to the administration and
  where information may be used by the public          operations of the GPO. To meet these responsibili-
  free of charge.                                      ties, the OIG conducts audits, evaluations, investi-
• GPO is advancing dissemination of Govern-            gations, and inspections. The OIG is dedicated to
  ment information in electronic formats. GPO          assisting the GPO improve its efﬁciency and effec-
  Access is one of the leading Federal sites on        tiveness as the GPO transforms into a 21st century
  the Internet. More than 250,000 Federal Gov-         digital information processing facility.
  ernment document titles from more than 70
  Federal databases from all branches of the
  Government are available to the public at
  www.access.gpo.gov.
• GPO programs are designed to reduce the
  need for duplicative production facilities,
  achieve signiﬁcant taxpayer savings through
  a centralized production and procurement
  system, and enhance public access to Govern-
  ment information.
table of contents
LETTER FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


EXECUTIVE SUMMARY
     Highlights of the Semiannual Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Management Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


OFFICE OF AUDITS
     A. Summary of Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     B. Audit Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
     C. Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     D. Advice and Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
     E. Status of Open Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
        Statistical Table - Questioned and Unsupported Costs . . . . . . . . . . . . . . . . . . . . . . . . . 19
        Statistical Table - Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
        Statistical Table - List of Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


OFFICE OF INVESTIGATIONS
     A. Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     B. Investigative Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     C. Types of Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     D. Status of Action on Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
     E. Investigative Case Dispositions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
     F. Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
        Statistical Table - Summary of Investigative Case Workload . . . . . . . . . . . . . . . . . . . . 27
        Statistical Table - Ofﬁce of Investigations Productivity Summary . . . . . . . . . . . . . . . . 27


OFFICE OF ADMINISTRATION AND INSPECTIONS
     A. Summary of Inspections Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
     B. Inspection Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
     C. Work-In-Progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
     D. Status of Open Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
        Statistical Table – Inspections Report Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
from the inspector general

                                                           The Public Printer has requested annual
                                                      funding for the OIG by direct appropriation
                                                      for Fiscal Year 2005. This recommendation is
                                                      consistent with how the vast majority of OIGs
                                                      receive annual funding. More importantly, di-
                                                      rect appropriation will provide the OIG with the

W        ith the submission of this report to
Congress, I reﬂect upon the challenges and ac-
                                                      necessary independence to monitor and evalu-
                                                      ate GPO’s rapidly changing operations.
                                                           There are unique characteristics of the OIG
complishments of my ﬁrst year as the Inspec-          that support direct appropriation and funding at
tor General of the GPO. The Public Printer has        adequate levels. For example, the OIG has a non-
presented to Congress an aggressive agenda            personnel audit universe of nearly 75 percent of
for transforming the GPO into a “21st century         GPO’s overall agency dollar responsibility. Most
digital information processing facility.” So too, I   strikingly, however, is the breadth of the OIG’s
have undertaken to transform the Ofﬁce of the         potential inspection, audit, and investigation
Inspector General signiﬁcantly.                       jurisdiction. For example, at the beginning of
     While my primary mission is to prevent           Fiscal Year 2004, the OIG had jurisdiction over
waste, fraud, abuse, and mismanagement, I am          more than 2250 active contractors, together gen-
also charged with promoting the economy, efﬁ-         erating more than 100,000 contracts per year.
ciency, and effectiveness of GPO programs and              Additionally, there are considerable tax-
operations, and commenting on policy matters          payer dollars at stake:
related to GPO. Through considerable manage-          • Contracts Review. Customers contract with GPO
ment initiatives and a cooperative relationship         for printing services totaling more than $650
with GPO management, my ofﬁce has provided              million annually.
GPO management with substantive recommen-             • Open Customer Procurements. There are ap-
dations and has identiﬁed more than $19 million         proximately $75 million in open GPO pro-
in audit, investigation, and inspection ﬁndings. I      curements. These are internal procurements
attribute this result to a better focus on higher       to GPO infrastructure and are separate and
priority matters affecting GPO’s programs, op-          apart from procured printing obligations.
erations, and bottom-line.                            • Other Procurements. Materials Management
     As GPO undergoes unprecedented changes,            issued purchase orders for more than $12
the OIG must adapt its operations, not only to          million of specialized acquisitions, and nearly
meet the current and evolving obligations of the        $19 million of purchase requisitions for pa-
OIG, but also to facilitate the transformation pro-     per products.
cess in a manner that ensures the public is pro-
tected from waste, fraud, abuse, and mismanage-
ment. Additionally, through ongoing cooperation
with the Public Printer, my ofﬁce will help moni-
tor the transformation to assure that changes are
necessary, useful, and cost-effective.




                                                                                                     1
• Workers’ Compensation. As of September 30,                Finally, I wish to thank Public Printer
  2003, the workers’ compensation liability esti-      Bruce R. James and his staff at various levels
  mate for GPO was $89.5 million over ten years.       of GPO and the Congress for their continued
• Investigations. One pending investigation against    understanding and support of the OIG’s work
  one contractor has resulted in uncovering a          and the seriousness that OIG’s work on behalf
  fraud scheme with an estimated total value of        of the American taxpayer deserves.
  nearly $5 million. OIG is aware of other fraud
  schemes by GPO contractors that OIG will
  soon be or has been investigating.
      The OIG anticipates that by FY 2005 it will      Marc A. Nichols
have responsibility for monitoring a nearly $800       Inspector General
                                                       U.S. Government Printing Ofﬁce
million universe. These are dollars that taxpay-
                                                       202-512-0039
ers demand be spent efﬁciently and effectively.
                                                       InspectorGeneral@gpo.gov
While I remain committed to GPO’s objectives,
I am concerned that current stafﬁng and con-
tract allocations are insufﬁcient to meet the
associated demands.
      As the GPO becomes a more technology
and content driven agency, the OIG must adapt,
commensurate with the rest of GPO, to the
requirements for increased sophistication with
stafﬁng and skill sets that meet the transfor-
mational needs of this new business model.
Adequate funding is essential to ensure that the
ofﬁce meets speciﬁc needs as they arise. This, in
turn, will allow for timely and efﬁcient delivery
of service to the public at large, the Public Print-
er, the Federal Government, and the Congress.
      I certainly appreciate the current budget
concerns and limitations. The GPO OIG remains
steadfast in its commitment to work with the
Public Printer and Congress to ensure that this
ofﬁce addresses its challenges in a cost-efﬁcient
and timely manner.




2
GPO OFFICE OF INSPECTOR GENERAL SUMMARY OF DOLLAR FINDINGS
Reporting Period October 1, 2003 through March 31, 2004


                              Questioned/        Funds Put         Amounts         Potential          Funds At     Total OIG
                              Unsupported       to Better Use     Recovered       Agency Cost          Issue       Findings
                                 Costs                                              Saving



    Ofﬁce of Audits                               $100,000                          $1,500,0001                    $1,600,000



    Ofﬁce of
                                $8,016,000                          $20,187          $84,023                        $8,120,210
    Investigations


    Ofﬁce of
    Administration               $63,0002                                                             $9,600,000   $9,663,000
    and Inspections


    TOTAL                      $8,079,000         $100,000          $20,187        $1,584,023        $9,600,000    $19,383,210




1
    This number reﬂects the average potential cost savings estimated in the range of $1,000,000 to $2,000,000.
2
    This number reﬂects the average questioned costs estimated from $14,000 to $112,000.




                                                                                                                   3
executive summary

                                                              The Ofﬁce of Investigations opened 19 inves-
                                                        tigative cases in response to 38 new complaints.
                                                        Through diligent investigative efforts, the Ofﬁce of
                                                        Investigations closed or referred 56 matters result-
                                                        ing in a 67 percent reduction in open cases. An on-
                                                        going investigation into allegations of false claims
                                                        of one contractor is resulting in the pursuit of civil
HIGHLIGHTS OF THE SEMIANNUAL                            prosecution having a questioned contract value of
REPORT                                                  approximately $5 million over the past three years.
                                                        Overall, the Ofﬁce of Investigations has recovered


D       uring this reporting period, the OIG real-
ized several signiﬁcant accomplishments. The
                                                        in excess of $20,000 through investigative efforts,
                                                        has helped realize GPO cost savings of nearly
                                                        $84,500, and is questioning costs of approximately
OIG continued its commitment to key manage-             $8 million. For example, the ofﬁce helped the GPO
ment initiatives and continued to advance a co-         realize savings in excess of $75,000 in a collabora-
operative work ethic to aid the OIG and the GPO         tive effort with the Ofﬁce of Workers’ Compensa-
in developing sound business practices, support-        tion Programs.
ing GPO managers and the Public Printer’s                     The Ofﬁce of Administration and Inspec-
return-on-investment philosophy. The OIG has            tions issued a report in response to a request by
augmented its work with other OIGs by becoming          the Joint Committee on Printing regarding the
actively involved with the Council of Counsels          National Aeronautics and Space Administration
for Inspectors General. Additionally, the OIG           Columbia Accident Investigation Board report.
advanced its liaison program with the Public            The OIG report highlighted the signiﬁcance of
Printer’s management team to further emphasize          using GPO to ensure that public information
a proactive role in supporting GPO management           is made available to the public in a timely and
in identifying cost savings and efﬁciency improve-      efﬁcient manner and identiﬁed potential cost
ment opportunities.                                     savings to the public of between $14,000 and
      The Ofﬁce of Audits showed increased cost         $112,000. Additionally, this ofﬁce aided the GPO
savings for the GPO. The Ofﬁce of Audits con-           in identifying persistent overdue accounts receiv-
ducted audits or audit-related activities identifying   able in connection with Federal Register billings.
$100,000 in funds to be put to better use. In addi-     The OIG conﬁrmed approximately $542,000 in
tion, the Ofﬁce of Audits evaluated GPO’s Uniform       outstanding receivables for Federal Register
Police Branch and assessed options of contracting       work and highlighted $9.6 million in addi-
with a third-party vendor, or merging with U.S.         tional receivables past-due more than ninety
Capitol Police. The OIG concluded that contract-        days. This inspection also identiﬁed the need
ing for uniform security police with a commercial       for GPO to realign its business process in the
vendor could realize a savings to GPO of $1 million     intake of work to conform to Executive Branch
and $2 million per year. The Ofﬁce of Audits also       accounting practices.
issued two White Papers assisting GPO in improv-
ing its efﬁciency and effectiveness regarding the
potential acquisition of a facility in St. Louis and
GPO’s paper procurement and use process.




                                                                                                            5
MANAGEMENT INITIATIVES                                 for the State of Colorado, having served as To-
                                                       bacco Counsel on behalf of the State of Colorado.
Ofﬁce of Audits Peer Review                            He also worked as an attorney in private practice,
The OIG’s Ofﬁce of Audits underwent a triennial        focusing primarily on civil lawsuits and workers’
peer review. Each Inspector General’s Audit staff      compensation cases. Mr. Ogden serves as the OIG
must undergo a peer review every three years to        liaison to GPO’s Chief Human Capital Ofﬁcer;
ensure that it is following applicable standards as    GPO’s Director of Congressional Relations; and
set forth by the General Accounting Ofﬁce and the      GPO’s Director of Public Relations.
President’s/Executive Council on Integrity and Ef-           In March, Glenn Griser joined the OIG as
ﬁciency. The AMTRAK Ofﬁce of Inspector General         the new Assistant Inspector General for Audits.
conducted this peer review. The present OIG man-       Mr. Griser most recently served as Audit Program
agement had been appointed for only two weeks          Director for the Ofﬁce of Inspector General at
prior to the end of the period under review.           the Department of Transportation (DOT), a
      Based on a sample of audit reports issued        position he held since 1997. Previously, Mr. Griser
from April 1, 2002, through March 31, 2003,            was the Director of Resources for the DOT OIG.
AMTRAK concluded that the process and proce-           He has also been Assistant Director of Audits for
dures in place in the Ofﬁce of Audits are in full      the Department of Labor OIG, has worked as a
compliance with Generally Accepted Government          Special Assistant at the Environmental Protec-
Auditing Standards (GAGAS). However, AMTRAK            tion Agency, was an analyst and investigator for
said the GAGAS were not always followed in the         the U.S. House Appropriations Committee, and
representative audit reports. As a result, the OIG     worked in the D.C. and Chicago regional ofﬁces
received a qualiﬁed opinion. The OIG had already       of the General Accounting Ofﬁce. Mr. Griser will
begun to address some of these concerns. The           also serve as the liaison to the GPO’s Director of
Assistant Inspector General for Audits responded       Customer Services.
to AMTRAK with a list of actions that the OIG is             Andrew Killgore assumed a new title, becom-
implementing to develop and better manage the          ing the Assistant Inspector General for Policy and
OIG’s audit staff. The AMTRAK Inspector General,       Planning. Mr. Killgore will continue in his role as
in his cover letter to the Peer Review Report, noted   liaison to GPO’s Chief Financial Ofﬁcer.
that he and the peer review team were pleased                In collaboration with the Customer Services
with these corrective actions.                         Department, a Printing Specialist is assisting the
                                                       OIG for a one-year detail. The Printing Specialist
Personnel Matters                                      will work with the Audit, Investigation, and Inspec-
Tony Ogden joined the OIG in February as the           tion teams.
Assistant Inspector General for Administra-
tion and Inspections/Legislative Counsel. Mr.
Ogden replaced Steve Higgins. Prior to his ap-
pointment, Mr. Ogden was the Litigation and
Compliance Counsel for the Tobacco Project of
the National Association of Attorneys General.
Mr. Ogden is a former Assistant Attorney General




                                                                                                         7
Ofﬁce of audits

                                                           Printing contracts often include a provision
                                                     that instructs GPO’s contractors to mail the ﬁnal
                                                     printed products. This provision either requires
                                                     the contractor to use GPO’s postal permit number
                                                     or delegates to the contractor authority to incur
                                                     mailing charges. Under a delegation, the contrac-


T    he Ofﬁce of Audits (OA), as required by the
Inspector General Act Amendments of 1988, con-
                                                     tor is to submit to GPO documentation regarding
                                                     the mailing charges for reimbursement. These
                                                     contractor mailings programs affect GPO’s
ducts independent and objective performance          Information Dissemination Department and Cus-
audits, ﬁnancial audits, and special reviews re-     tomer Services Department.
lating to GPO. All OIG audits are performed in             The audit identiﬁed $100,000 in cost ef-
accordance with applicable Generally Accepted        ﬁciencies and recommended that these funds
Government Auditing Standards promulgated by         be put to better use. The audit made eight other
the Comptroller General of the United States.        recommendations to improve controls over the
When requested, the OA provides accounting           contractor mailings programs. The signiﬁcant
and auditing assistance to the OIG Special           recommendations were to:
Agents for both civil and criminal investigations.   • Ensure that contractors submit required mailing
The OA also refers irregularities and other suspi-     statements/documents to GPO;
cious acts detected during audits to the Ofﬁce of    • Develop clear, concise standard contract
Investigations for investigative consideration.        language that provides the requirements for
                                                       contractors regarding mailings of ﬁnal prod-
                                                       ucts; and
A. SUMMARY OF AUDIT ACTIVITY                         • Develop sanctions for contractors (e.g., with-
The OA issued one audit report, three evalu-           holding reimbursement) that fail to comply with
ation reports, and two White Papers to GPO             documentation or other requirements.
ofﬁcials during the six-month reporting period             GPO management agreed with all recom-
ending March 31, 2004. These reports made 14         mendations.
recommendations for improvements, includ-
ing cost efﬁciencies that represent between $1       Evaluation Reports
million and $2 million in potential savings per      Report on GPO Police Costs and Issues
year for GPO. Further, the OA has two reviews             The OA, with assistance from Ofﬁce of In-
that are works-in-progress, and the OA assisted      vestigations (OI), evaluated the operational costs
and advised GPO in three additional matters. As      and issues of GPO’s Uniform Police Branch (GPO
reported earlier, the OA also underwent its trien-   Police). Speciﬁcally, the OA assessed (a) current
nial peer review during this reporting period.       GPO Police operational expenditures and (b) cost
                                                     projections related to alternatives to GPO’s cur-
B. AUDIT ACCOMPLISHMENTS                             rent police operations.

Audit Report
Report on the Government Printing Ofﬁce’s
Contractor Mailings Programs (Report Num-
ber 04-01)




                                                                                                     9
The OA used several sources to complete this          Combining the $700,000 in reimbursables with
evaluation, including current Daily Treasury Yield    the possible $790,000 reduction in direct costs
Curve Rates, to arrive at net present value calcu-    would offset the predicted $1.4 million shortfall.
lations for the cost projections.                     Further, the OIG determined that GPO could
     The OA evaluation concluded that GPO             save approximately $60,000 per year for the next
could realize savings from $1 million to $2 mil-      5 years by terminating the lease on its current St.
lion per year by contracting with a third-party       Louis facility and moving those operations to the
vendor for uniformed security police services.        newly acquired facility. The OIG recommended
The OA’s report also included other options and       that GPO engage in negotiations with represen-
related data for GPO management’s consider-           tatives of the Army to discuss these factors be-
ation – e.g., merging GPO Police with U.S. Capi-      fore an acquisition decision was made. The OIG
tol Police that would cost GPO an additional $13      acknowledges that GPO elected not to proceed
million to $16 million over a 5-year period.          with the acquisition.

Two Quarterly Reports to Congress of GPO’s            GPO’s Paper Procurement and Use Issues (Re-
Prompt Payments of DC Water Bills                     port Number 04-02)
     Pursuant to Public Law 106-54, the OA issued           As GPO transforms from a predominantly
two reports (on October 15, 2003, and January 15,     “printing” operation to an “information dissemi-
2004) analyzing the promptness of GPO’s payment       nation” operation, many changes are taking
for water and sewer services.                         place. With these changes, problems arise that
                                                      GPO has identiﬁed and for which it is testing po-
White Papers                                          tential solutions, such as excess warehouse space
GPO’s Proposed Acquisition of Army’s Distri-          issues. Other issues, such as “just-in-time” inven-
bution Operations Facility in St. Louis, MO           tory and paper waste, provide opportunities for
(Report Number 04-00)                                 GPO to improve its efﬁciency and effectiveness
      The Public Printer requested the OIG per-       in meeting its mission. The OIG White Paper
form an analysis of the proposed costs associ-        provided three areas needing further study or at-
ated with GPO’s possible acquisition of the U.S.      tention in order for GPO to address these issues:
Army Publishing Agency (USAPA) Distribution           • A comprehensive study should be conducted of
Operations Facility in St. Louis, MO. If GPO pro-        “just-in-time” inventory, and it should consider:
ceeded with the acquisition, the Superintendent          lessons learned from an ongoing pilot project;
of Documents estimated GPO would have an                 projections concerning all inventory; and cur-
initial shortfall of $1.4 million.                       rently available ofﬁce and warehouse space and
      On October 30, 2003, the OIG issued a White        potential future uses for those spaces.
Paper report stating the estimated $10.6 million in   • A study should be conducted that reviews the
FY 2004 direct costs could be reduced by about           advantages and disadvantages of allowing
$790,000 through negotiations with USAPA and             a “just-in-time” inventory contractor to use
by other GPO management actions. Further,                existing GPO warehouse space. Allowing the
the anticipated reimbursables associated with            contractor to use GPO space offers beneﬁts to
this acquisition were approximately $700,000.            both GPO and the contractor – e.g., eliminat-




10
  ing added costs of transporting paper from        Review of Effectiveness of GPO’s Regional
  off-site warehouses; making direct deliveries     and Satellite Ofﬁces in Providing Services to
  to GPO’s substores; and having readily avail-     Federal Agencies
  able paper in emergency situations, such as             The OIG is conducting an examination of
  terrorist strikes.                                the effectiveness and efﬁciency of GPO’s Regional
• GPO management should appoint an Anti-Waste       Printing Procurement Ofﬁces (RPPOs) and Satel-
  Committee to coordinate and build upon the        lite Printing Procurement Ofﬁces (SPPOs) in pro-
  initiatives of GPO’s Excellence Through Team-     viding customer agencies with requested products
  work Committee. Examples of suggested agenda      and services. To meet this objective, the OIG will:
  items for the Anti-Waste Committee include:       • Review and analyze revenues and operating
  determining the quality and accuracy of GPO’s        costs for the past 3 to 4 years;
  present data on paper waste; examining the        • Review and analyze orders processed for the
  adequacy of internal controls (including those       past 3 to 4 years;
  designed to protect paper from theft); and        • Compare the number of full-time employees
  researching costs and beneﬁts of new print-          authorized with the number of employees
  ing technologies.                                    on-hand;
                                                    • Assess the monitoring of the RPPOs/SPPOs
                                                       and review management incentives to gener-
C. WORK-IN-PROGRESS
                                                       ate new business and reduce costs;
The OA has undertaken the following audits
                                                    • Determine the amount of business performed
and reviews for which ﬁeldwork is ongoing. The
                                                       for the RPPOs/SPPOs by private printers lo-
corresponding reports, as well as others, will be
                                                       cated (a) within the RPPOs’/SPPOs’ particular
issued in the next reporting period:
                                                       geographic areas and (b) in other geographic
                                                       areas; and
Audit of a Contractor’s Settlement Proposal
                                                    • Identify the percentages of customer agen-
      GPO management requested an audit of
                                                       cies’ printing budgets that were spent at or
a contractor’s settlement proposal regarding
                                                       through GPO.
a supplemental agreement to the contract.
                                                          The OIG anticipates issuing this report dur-
This supplemental agreement resulted from
                                                    ing the fourth quarter of FY 2004.
GPO authorizing an acceleration of the pro-
duction schedule on a printing job for the
Internal Revenue Service. The contractor’s          D. ADVICE AND ASSISTANCE
settlement proposal is for $461,400, which is       During this reporting period, the OA provid-
the maximum amount allowable under the              ed substantial advice and assistance to GPO
supplemental agreement. Audit fieldwork has         ofﬁcials and other Federal audit organiza-
been started but additional documentation is
                                                    tions as follows:
still needed from the contractor. The report is
scheduled for issuance during the third quarter
                                                    2003 Financial Statement Audit
of FY 2004.
                                                    The audit of GPO’s Fiscal Year 2003 ﬁnancial
                                                    statements was completed on November 14, 2003,




                                                                                                    11
three months sooner than in the previous            E. STATUS OF OPEN RECOMMEN-
year. The OA provided support for and facili-       DATIONS
tated this achievement. Under 44 U.S.C. 309,        GPO management ofﬁcials had not implemented
an annual ﬁnancial statement audit has been         all of the signiﬁcant recommendations contained
required since Fiscal Year 1997. KPMG LLP           in nine audit reports issued during prior semian-
has been retained to conduct this audit under       nual reporting periods. A synopsis of OIG’s audit
a multi-year contract for which the OA is the       ﬁndings and recommendations, along with man-
Contracting Ofﬁcer’s Technical Representative       agement’s actions, to implement the outstanding
(COTR). In addition, the OA provides admin-         recommendations follow:
istrative support and coordination with GPO
management for the KPMG auditors. This is           Report on Improving the Controls Over GPO’s
the third annual audit to be performed under        Travel Program (Report 01-05, issued June
the KPMG contract. The option to renew this         12, 2001)
contract for FY 2004 has been exercised, and
the contract can be renewed for one more year       Finding
(Fiscal Year 2005).                                 Opportunities exist to improve controls by issu-
                                                    ing fewer and smaller travel advances, and by
Liaison with GPO Managers                           updating published travel regulations.
The OA, along with the Assistant Inspector Gen-
eral for Policy and Planning, conducted liaison     Recommendations
activities with GPO’s Customer Services Depart-     The Director of Administrative Support should:
ment, Information Dissemination Department,         • Not authorize travel advances for employees
Plant Operations, and Finance and Adminis-            with Government credit cards (activated and
tration Department. The OIG conducts these            not activated) and require the use of credit
liaison activities in order to improve GPO’s pro-     cards for all cash advances to these employees
grams and operations, the OIG’s work products,        (0105-01); and
and GPO/OIG communications.                         • Update GPO Publication 815.1B Travel Regu-
                                                      lations dated July 1989 with current General
Assistance to OI on Investigative Case                Services Administration’s guidelines and GPO
During this period, the OA assisted the OI in         Notices on travel advances for GPO employ-
the investigation of alleged product substitution     ees with Government credit cards (0105-03).
and inappropriate claims by a contractor. The
OA staff assisted the OI in reviewing evidence      Management Comments
and documents that could result in signiﬁcant       Under GPO’s reorganization, the Ofﬁce of the
savings to GPO. The case was also accepted by a     Chief Financial Ofﬁcer was assigned responsi-
U.S. Attorney’s Ofﬁce for civil prosecution.        bility for the GPO Travel Management Program
                                                    and, thus, for commenting on the above recom-
                                                    mendations. On March 18, 2004, the Chief Finan-
                                                    cial Ofﬁcer responded that he would be draft-
                                                    ing proposed changes to GPO’s cash advances




12
process to address our ﬁrst recommendation              controls over credit card payments for training
(0105-01). Regarding the other recommendation           and will consider the OIG’s recommendation.
(0105-03), the Chief Financial Ofﬁcer concurred
with the recommendation and advised that he             OIG Comments
expects an updated publication will be issued           The failure of the Chief Financial Ofﬁcer and
later this year.                                        Chief Human Capital Ofﬁcer to follow established
                                                        management controls as provided in GPO Instruc-
OIG Comments                                            tion 805.27 demonstrates a lack of direction
These recommendations remain open until the             over GPO’s training program. As a result, GPO
Chief Financial Ofﬁcer completes and imple-             continues to pay an estimated $500,000 annu-
ments the above actions.                                ally in training without reasonable assurances
                                                        or safeguards against fraud, waste, or abuse.
Report on Improving the Controls Over GPO’s
Smartpay Program at the Central Ofﬁce (Re-              Report on Improving the Controls Over Su-
port 02-09, Issued September 9, 2002)                   Docs [now the Information Dissemination De-
                                                        partment] Central Ofﬁce Sales Order Program
Finding                                                 (Report 02-10, issued September 12, 2002)
From July through December 2001, the OIG
found that a secretary in GPO’s Training and            Finding
Career Development Branch authorized over               The audit determined that opportunities exist to
$238,000 for 157 training courses without certi-        improve the internal controls over the follow up
fying that GPO employees attended the courses.          of bad debts, namely through the development
This was contrary to Section 5.d of GPO Instruc-        of internal controls within the Information Dis-
tion 805.27 Obtaining, Using, and Safeguarding          semination Department’s Order Division by: (a)
Commercial Credit Cards.                                updating the Division’s policy statement and au-
                                                        thorized ofﬁce procedures and (b) implement-
Recommendation                                          ing written procedures in the areas of follow-up
The Director of Personnel (now the Chief Hu-            letters, foreign checks, and collection practices
man Capital Ofﬁcer) should ensure that, before          of bad debts.
authorizing payments on training courses, the
Chief of the Training and Career Development            Recommendations
Branch either (a) receives Copy 9 of the Request,       The Superintendent of Documents should en-
Authorization, Agreement and Certiﬁcation of            sure that:
Training form or (b) uses alternate means of cer-       • Detailed procedures are developed and imple-
tiﬁcation of training, such as making telephone           mented on the timing of the three follow-up
calls to employees’ supervisors (0209-06).                letters in the Order Division in order to improve
                                                          the chances of a successful collection from cus-
Management Comments                                       tomers with dishonored checks (0210-02);
On March 18, 2004, the Chief Financial Ofﬁcer re-       • Written procedures are developed and imple-
sponded that he and the Chief Human Capital Ofﬁ-          mented for the processing of orders by the Re-
cer will, in the near future, re-examine the internal     ceipts and Processing Branch personnel when




                                                                                                        13
  checks are drawn on foreign banks to ensure      Finding
  that the checks are encoded with the routing     The Denver Manager did not establish an inter-
  symbol assigned to the United States ﬁnancial    nal control program in the Regional Printing
  institution by the American Bankers Associa-     Procurement Ofﬁce (RPPO) through the perfor-
  tion (0210-05);                                  mance of vulnerability assessments and internal
• Written procedures are established and imple-    control reviews as prescribed by GPO Instruc-
  mented to ensure that all collection practices   tion 825.18A Internal Control Program.
  for bad debts from the Sales Program are
  exhausted before a memorandum is written         Recommendation
  from the Order Division to the Comptroller       The Manager of the Printing Procurement De-
  requesting certain unpaid invoices be written    partment should ensure that the Manager of
  off (0210-06); and                               the Denver RPPO establishes an internal control
• An internal control program is established       program through the performance of vulner-
  within the Order Division through the per-       ability assessments and internal control reviews as
  formance of vulnerability assessments and        prescribed by GPO Instruction 825.18A (0212-26).
  internal control reviews as prescribed by GPO
  Instruction 825.18A (0210-10).                   Management Comments
                                                   On March 19, 2004, the Managing Director of
Management Comments                                Customer Services stated that Customer Services
As a result of GPO’s reorganization, the Infor-    is conducting comprehensive reviews of all RP-
mation Dissemination Department stated that        POs to determine whether they should continue
the ﬁrst three of the above recommendations        their operations. He stated that GPO is closing the
were transferred to GPO’s Chief Financial Of-      Denver printing plant effective May 1, 2004, and
ﬁcer. For the last recommendation (0210-10),       will restructure the remaining Denver RPPO’s
the Information Dissemination Department has       operations. He requested a delay in establishing
established an internal control program but has    an internal control program until he has deter-
yet to implement it.                               mined the ﬁnal structure of those operations.

OIG Comments                                       OIG Comments
The OIG will follow-up with the Chief Finan-       This recommendation remains open until the
cial Ofﬁcer during the next six-month reporting    Managing Director of Customer Services com-
period to determine the status of the first        pletes and implements the internal control
three recommendations. The last recommenda-        program, which he should do within the next
tion remains open until the Information Dis-       six months.
semination Department implements the inter-
nal control program, which it should do within     Report on Improving the Controls Over the
the next six months.                               Processing of Customer Agencies’ Credit Card
                                                   Charges for Printing Procurements with Rid-
Report on Improving the Controls Over the          ers (Report 03-02, issued March 31, 2003)
Procurement Process of the Denver Regional
Printing and Procurement Ofﬁce (Report 02-
12, issued November 12, 2002)




14
Finding                                              Control System databases – because the two sys-
The OIG found that Printing Procurement De-          tems were not interfaced, which is contrary to
partment personnel from Central Ofﬁce and six        Standard 1 of GPO Instruction 825.18A Internal
Regional Printing Procurement Ofﬁces miscal-         Control Program.
culated the charges on customer agencies’ credit
cards in 30 percent (18 of 61) of the procure-       Recommendation
ments, which totaled $10,169.                        The Managing Director of Customer Services
                                                     should implement an automatic interface be-
Recommendation                                       tween the PC database and the Procurement
The Manager of the Printing Procurement Depart-      Information Control System for entering future
ment and the Comptroller should immediately          contract modiﬁcations data (0304-02).
ﬁnalize the draft GPO Instruction 440.12 Process-
ing Printing and Binding Credit Card Payments and    Management Comments
distribute to affected personnel (0302-01).          On March 9, 2004, the Managing Director of
                                                     Customer Services stated that PPD’s Systems
Management Comments                                  Support group is working on consolidating the
On March 18, 2004, the Chief Financial Ofﬁcer        two databases. Systems Support is in the pro-
stated that the business rules for the credit card   cess of identifying enhancements that will be
process have been drafted and are being coor-        necessary. It is anticipated that development of
dinated with Customer Services. Once agreed          the enhancements will begin by the Fall of 2004.
upon, the GPO Instruction will be reissued. On
March 25, 2004, the Managing Director of Cus-        OIG Comments
tomer Services conﬁrmed the coordination.            This recommendation remains open until the
                                                     Managing Director of Customer Services com-
OIG Comments                                         pletes and implements the system enhancements.
This recommendation remains open until GPO
management completes and issues the GPO In-          Report on the Federal Depository Library
struction, which should be done within the next      Program (FDLP) Inspection Program (Report
six months.                                          03-06, issued September 30, 2003)


Report on Improving Controls Over Printing           Finding
Procurement Department’s Contract Modiﬁca-           The OIG identiﬁed several opportunities to im-
tions at Central Ofﬁce (Report 03-04, issued         prove internal controls over the FDLP inspection
September 30, 2003)                                  program. Examples of the problems identiﬁed
                                                     include: the inspections of libraries are not pre-
Finding                                              cisely deﬁned; the library inspections process
Printing Specialists in the Printing Procurement     needs to be more efﬁcient; and the inspectors
Department (PPD) were entering contract modi-        need improved operating procedures regarding
ﬁcation data twice into PPD’s two automated          their time management.
databases – a stand-alone personal computer
(PC) system and the Procurement Information




                                                                                                    15
Recommendation                                        before processing resulted in 89 employees,
The OIG recommended 13 areas for improve-             who resided in Washington D.C., inappro-
ments.                                                priately receiving about $20,000 annually in
                                                      farecards;
Management Comments                                 • Lack of controls in the monthly distribution
The Superintendent of Documents agreed with           of farecards to Laurel employees resulted in a
all recommendations and has begun implemen-           shortage after the July 2003 reconciliation;
tation of corrective actions.                       • Allowing employees time off to go and pick
                                                      up their monthly farecards costs GPO ap-
OIG Comments                                          proximately 900 hours or $25,542 annually in
The OIG will follow up on the status of imple-        lost productivity; and
mentation of these recommendations during           • GPO could achieve beneﬁts of: (a) $14,400 by
the next semiannual period.                           reducing future orders of monthly farecards;
                                                      and (b) $3,900 by reducing the ending inven-
Report on Improving the Controls Over the             tory of monthly farecards.
Administering of GPO Transit Beneﬁt (Metro-
chek) Program (Report 03-07, issued Septem-         Recommendations
ber 30, 2003)                                       The Comptroller should ensure that the As-
                                                    sistant Comptroller of the General Accounting
Finding                                             Division or the Chief of the Cash Management
The OIG found that management controls were         Branch:
not always effective over (a) the eligibility of    • Periodically matches the databases of the
GPO employees for participation in the Metro-          parking program and the Metrochek program
chek program and (b) the distribution of monthly       to ensure that GPO employees are not par-
farecards. Furthermore, the efﬁciency of the pro-      ticipating in both programs simultaneously
gram as established in GPO Notice 450 series and       (0307-02);
GPO Instruction 825.18A Internal Control Pro-       • Takes appropriate action, if warranted, to re-
gram could be improved. The OIG identiﬁed a            cover the $12,696 from the 17 GPO employees
total of $92,270 of funds that could be put to         who received farecards while also participat-
better use. The major ﬁndings were:                    ing in GPO’s parking program (0307-03);
• Lack of effective communication between the       • Requests additional support from the 29 em-
  Metrochek Program Coordinator and the Park-          ployees who could not justify the additional
  ing Manager to ensure that GPO employees             costs in their commutes to and from GPO
  did not participate in both programs; from           (0307-05);
  September 2001 through August 2003, this          • Uses the Washington Metropolitan Area Tran-
  lack of communication resulted in 17 employ-         sit Authority (WMATA) Ride Guide on the ap-
  ees receiving $12,696 in farecards while still       plications received from the remaining Metro-
  participating in GPO’s parking program;              chek recipients to ensure the actual beneﬁts
• Insufﬁcient questioning of employees’ com-           received are supported (0307-07);
  muting expenses on Metrochek applications




16
• Requires all employees participating in the       Finding
  Metrochek program to submit an annual ap-         During the audit of GPO’s Corrective Action
  plication to ensure the transit information is    and Other Employee Programs of the Employee
  current (0307-08);                                Relations Branch (ERB), the OIG found that
• Requests an updated application from the          incident reports prepared by GPO’s Uniformed
  Laurel employee, with written justiﬁcation for    Police Branch (UPB) and reviewed by the Physi-
  the $100 request in farecards, and compare        cal Support Group were not always received by
  the application with the WMATA Ride Guide         ERB in a timely manner. The OIG found that
  (0307-09); and                                    UPB and the Physical Support Group did not
• Starts a pilot program using the SmarTrip         have any management controls developed or
  card from Metro’s SmartBeneﬁts Program for        written to ensure that incident reports were
  GPO employees using the MetroRail (subway)        completed, reviewed, and approved in a timely
  exclusively and to expand the program gradu-      manner before forwarding them to ERB.
  ally to eventually include MetroBus, Maryland
  Rail Commuter, and Virginia Railway Express       Recommendations
  commuters (0307-11).                              GPO’s Assistant Chief of Staff for Security (for-
                                                    mer title, GPO has yet to provide a new title for
Management Comments                                 this position) should ensure that management
On March 18, 2004, the Comptroller responded        controls are developed and written for the:
that: (a) actions were being taken to implement     • UPB to determine a reasonable timeframe to
recommendations 0307-02, 0307-03, 0307-05 and         complete incident reports in a timely manner
0307-09; (b) recommendations 0307-07 and 0307-        (0308-01);
08 will be implemented in a reasonable time; and    • UPB to log and track incident reports to ensure
(d) recommendation 0307-11 will be considered.        they are prepared and approved in a timely
Based on management’s comments, the other             manner before forwarding them to the Physi-
four recommendations (0307-01, -04, -06, and -        cal Security Group (0308-02); and
10) have been closed. GPO management has not        • Physical Security Group to review and approve
decided on actions regarding the OA’s ﬁndings of      future incident reports in a timely manner be-
$92,270 in funds that could be put to better use.     fore forwarding them to the ERB (0308-03).

OIG Comments                                        Management Comments
These recommendations remain open until the         The Director of Labor and Employee Relations
Comptroller implements the above actions and        did not respond by the end of this semiannual
comments on the $92,270 in funds that could be      period regarding the status of these recommen-
put to better use.                                  dations. However, the Director did provide com-
                                                    ments on April 15, 2004, prior to the printing of
Report on Preparing Uniformed Police Branch’s       this report. Based on those comments, the OIG
Incident Reports in a Timely Manner for GPO’s       acknowledges that corrective actions have been
Corrective Action Program (Report 03-08, is-        taken on all recommendations.
sued September 30, 2003)




                                                                                                  17
OIG Comments                                          Recommendations
The Director’s April 15, 2004 comments are suf-       This report contained 11 recommendations to
ﬁcient to close all three recommendations.            address the above ﬁndings and improve the
                                                      internal controls over the fair and timely pro-
Report on GPO’s Corrective Action and Other           cessing of documents associated with GPO’s
Employee Programs (Report 03-09, issued               corrective action and related programs.
September 30, 2003)
                                                      Management Comments
Finding                                               The Director of Labor and Employee Relations
The audit found that the controls over the fair       did not respond by the end of this semiannual
and timely processing of pertinent documents          period regarding the status of these recommen-
connected with GPO’s Corrective Action and            dations. However, the Director did provide com-
other employee programs – e.g., suspensions,          ments on April 15, 2004, prior to the printing of
removals, letters of warning, and internal in-        this report. Based on those comments, the OIG
vestigations – were not in compliance with the        acknowledges that corrective actions have been
timeframes established in the Director’s Cor-         taken on 3 of the 11 recommendations. The
respondence Schedule and GPO Instruction              Director also noted that the former Employee
825.18A Internal Control Program. The OIG             Relations Branch had been reorganized, but the
found the following problems in the Employee          Director did not provide the status of the other
Relations Branch:                                     eight recommendations.
• Specialists were not always timely in prepar-
  ing the ﬁnal letter to the Deciding Ofﬁcial on      OIG Comments
  suspensions and removals within the Director’s      The OIG will follow up with GPO’s Chief Human
  Correspondence Schedule of 64 calendar days,        Capital Ofﬁcer, the manager of the Director of
  after receipt of GPO Form 2021; from October        Labor and Employee Relations, regarding the
  1, 2001, through March 31, 2003, this problem       status of the remaining eight recommendations.
  resulted in four employees remaining on the
  payroll and receiving an additional $43,181;
• Specialists were not always timely in prepar-
  ing letters of warning within the Director’s Cor-
  respondence Schedule of 25 calendar days;
• Specialists were not always timely or com-
  plete in preparing memorandums to super-
  visors on recommending corrective actions
  after receiving incident reports from GPO’s
  Uniformed Police Branch; and
• An internal control program had not been
  established.




18
STATISTICAL TABLE ON AUDIT REPORTS WITH QUESTIONED AND UNSUPPORTED COSTS

                                                     Number of         Questioned        Unsupported             Total
    Description
                                                      Reports            Costs              Costs                Costs


    Reports for which no management decision
    has been made by the commencement of the              2               $4,405            $93,661             $98,066
    reporting period


    Reports issued during the reporting period            0                 $0                 $0                   $0


    Subtotals                                             2               $4,405            $93,661             $98,066



    Reports for which a management decision
    was made during the reporting period

    1. Dollar value of disallowed costs                   23              $4,405            $93,661             $98,066
    2. Dollar value of allowed costs                      0                $0                 $0                  $0



    Reports for which no management decision
    has been made by the end of the                       0                  0                  0                   0
    reporting period


    Reports for which no management decision
    has been made within six months                       0                  0                  0                   0
    of issuance




3
 GPO management agreed with all the OIG’s ﬁndings in these two reports (regarding a contractor’s claimed costs) and, thus,
disallowed the contractor’s claimed cost of $98,066.




                                                                                                               19
STATISTICAL TABLE ON AUDIT REPORTS WITH RECOMMENDATIONS
THAT FUNDS BE PUT TO BETTER USE

                                                                           Number of    Funds Put
Description
                                                                            Reports    To Better Use


Reports for which no management decision has been made by the com-
                                                                               1          $92,270
mencement of the reporting period



Reports issued during the reporting period                                     1         $100,000


Subtotals                                                                      2         $192,270


Reports for which a management decision was made during the reporting
period

• Dollar value of recommendations that were agreed to by management            1         $100,000
• Dollar value of recommendations that were not agreed to by management        0           $0



Reports for which no management decision has been made by the end of the
                                                                               1          $92,270
reporting period



Reports for which no management decision has been made within six months
                                                                               1          $92,270
of issuance




            20
STATISTICAL TABLE - LIST OF AUDIT REPORTS ISSUED DURING REPORTING PERIOD


Contract Audit Reports                             Questioned Costs                   Unsupported Costs



                          To protect the Government’s negotiating position on claims that
                          have not been settled, information identifying the contractor
                          and the associated questioned costs has not been disclosed.


Totals                                                     $0                                 $0




Other Audit Reports                                                                 Funds Put to Better Use


Report on the Government Printing Ofﬁce’s Contractor Mailings Programs (Re-                 $100,000
port Number 04-01, issued 3/31/04)


Total                                                                                       $100,000




                                                                                                   21
OIG Hotline:
1.800.743.7574
Office of investigations

                                                     the OI has witnessed an increase in information
                                                     and/or complaints received regarding allegations
                                                     of fraudulent activities by GPO contractors.
                                                     In addition, OI has undertaken a proactive
                                                     approach to identifying violators of GPO con-



T
                                                     tracts. The result of this new approach showed
                                                     a marked increase in the dollar value of con-
      he Office of Investigations (OI) conducts      tracts under question, agency funds saved, and
and coordinates investigations relating to em-       monies recovered.
ployee misconduct and monetary or material                To coordinate matters better with U.S. At-
losses occurring in GPO programs and opera-          torneys’ Ofﬁces (USAO), OI will begin using case
tions. These investigations may include contrac-     management software currently used through-
tors, program participants, GPO Management,          out the U.S. by prosecutorial and law enforce-
and other employees. Special Agents in the OI        ment ofﬁces in the Department of Justice. By
are also designated as Special Police Officers       the use of this software, OI can easily discuss,
pursuant to 44 U.S.C. § 317.                         coordinate, implement, and integrate up-to-the-
      The OI’s investigations with federal or        minute investigative and prosecutorial efforts
non-federal investigative agencies may result        between OI and USAO ofﬁces.
in criminal prosecution, civil proceedings, or            In conjunction with the Ofﬁce of Audits, OI
imposition of administrative sanctions. Prosecu-     assisted in the evaluation of cost expenditures
tions may result in court-imposed prison terms,      related to GPO Uniformed Police Branch. The
probation, ﬁnes, and/or restitution.                 ﬁndings and savings options were reported to
      The OI continues an aggressive effort to de-   GPO management.
tect, prevent, and investigate the loss of Govern-
ment assets. In addition, the OI seeks to recover
monetary funds and investigative costs payable
                                                     C. TYPES OF CASES
                                                     The OI’s investigative workload is categorized
directly to the GPO as part of criminal and civil
                                                     into four major areas based on the types of
adjudication, or through administratively nego-
                                                     investigative cases:
tiated settlements.

                                                     Ofﬁce of Workers’ Compensation Program
A. SUMMARY OF INVESTIGATIVE                          (OWCP)
ACTIVITY                                             The OI investigates GPO employees who have
During this reporting period, the OI opened 19       allegedly submitted false claims and made false
investigative cases in response to new complaints    statements to facilitate receipt of workers’ com-
or allegations, and closed or referred 56 matters.   pensation beneﬁts. The OI currently has four
                                                     open investigations involving alleged OWCP
                                                     fraud violations.
B. INVESTIGATIVE ACCOMPLISH-
MENTS
The OI remains active in liaison efforts with
agency ofﬁces throughout the U.S. As a result,




                                                                                                   23
Title 44, United States Code (U.S.C.)                 are not limited to, theft, assaults, drug violations,
Violations                                            gambling, kickbacks, and travel voucher fraud.
The OI investigates allegations involving report-     The OI has two active misconduct investigations.
ed violations of Title 44 U.S.C. (Public Printing
and Documents). These include federal agen-
                                                      D. STATUS OF ACTION ON REFERALS
cies allegedly circumventing GPO by procuring
                                                      The OI’s investigative efforts result in both exter-
printing services in violation of the law. The OI
                                                      nal and internal referrals for action. A summary
referred three Title 44 investigations to GPO
                                                      of outstanding referrals by the OI follows:
management for their information or action.
     The OI also investigates allegations of vio-
                                                      External
lations of Title 31 U.S.C. (Money and Finance),
                                                      U.S. Attorney’s Ofﬁce (USAO) / State Attorney’s
which may arise from violations of Title 44. Title
                                                      Ofﬁce (SAO):
31 violations occur as a result of federal employ-
                                                           One prior reporting period investigation
ees expending their agency’s congressionally ap-
                                                      into allegations of false claims, false statements,
propriated funds for printing services provided
                                                      and product substitution was accepted for civil
by contractors without requesting those services
                                                      prosecution. The total amount of contracts un-
through GPO.
                                                      der question is $5 million dollars over the past
     The OIG will continue to coordinate with
                                                      three years.
GPO management and members of Congress
concerning ongoing issues related to Title 44
                                                      Internal
violations.
                                                      CFO/CHCO/CIO/Management:
                                                           A total of 28 matters were referred to GPO
Procurement Fraud
                                                      management for action during this reporting peri-
The OI investigates allegations of statutory viola-
                                                      od. No additional investigative effort is required.
tions involving GPO contractor service provid-
ers defrauding the Government in connection
with GPO’s procurement of printing, goods, and        E. INVESTIGATIVE CASE DISPOSI-
services. These violations include, but are not       TIONS
limited to, false claims, false statements, wire      The following depicts the type of matters han-
and mail fraud, product substitution, and Small       dled by the OI during this reporting period:
Disadvantaged Business Program violations.                 The OI investigated the handling of a ﬁre
The OI currently has nine open procurement            by the GPO Police Force. OI’s ﬁndings were for-
fraud cases.                                          warded to GPO management with the following
     A prior reporting period fraud case was re-      recommendations:
ferred to the USAO for prosecution during this        • Create written Standard Operating Procedures
period. Civil prosecution action is pending.            regarding responses by police ofﬁcers and oth-
                                                        ers to ﬁre alarms and emergency situations.
Employee Misconduct                                   • Police ofﬁcers should receive additional train-
The OI investigates allegations involving GPO em-       ing in emergency response.
ployee misconduct. These allegations include, but     • Regularly test ﬁre alarms and equipment for
                                                        operability.




24
• Consider providing necessary equipment and         work for every region within GPO, has allegedly
  training to police ofﬁcers required to search      over-billed for services in approximately 300 to
  for smoke or ﬁre.                                  600 contracts. The OI is questioning and concen-
      GPO management responded to the recom-         trating its efforts in contracts that total approxi-
mendations and stated: 1) Standard Operating         mately $865,000. Initially, several print orders
Procedures will be put in place; 2) Training         and invoices were reviewed and 12 invoices
needs will be addressed; 3) Post Orders will be      showed irregularities resulting in the recovery
updated; and 4) GPO management will meet             of $7,187.24. The contractor’s invoices continue
with police ofﬁcers to discuss changes.              to be reviewed for inconsistencies.
      The OI received information from the Uni-            In the previous reporting period, the OI
formed Police Branch that GPO employees were         initiated a proactive approach to reducing
falsifying GPO “One-Day Temporary Parking            workers’ compensation costs at GPO. The OI
Permits.” It was alleged that employees were us-     has collaborated with OWCP, resulting in a
ing the temporary permits on a daily basis, and      reduction of Continuation of Pay (COP) costs
over an extended period of time, to receive free     from $176,889 in ﬁscal year 2003 to $100,255 in
parking and circumventing the agency’s “Pay          the ﬁrst half of ﬁscal year 2004. This is a savings
Parking Program.” In one case, an employee           of $76,634 (a 44 percent decrease) in COP costs.
inserted a validity date of his permit to last one   The OI is also reviewing the long-term periodic
year. The OI discovered that the permit form         rolls. The OI is questioning $2 million dollars
was available on the agency’s main website and       (of $6.4 million dollars) in long-term payments,
accessible to all employees. Through the efforts     and claims are undergoing review to verify the
of OI, the form was removed from the website         legitimacy of OWCP beneﬁt payments.
and the previously mentioned employee was                  The OI is questioning $151,000 in contracts
terminated from federal employment for his           involving two contractors allegedly involved in
involvement from this matter.                        the submission of false claims/false statements,
                                                     illegal sub-contracting, and bid collusion.
                                                           Considering heightened homeland secu-
F. WORK-IN-PROGRESS                                  rity, the OI initiated an inquiry to determine
OI conducted an investigation of a GPO contrac-
                                                     the validity of all GPO employees’ Social Se-
tor concerning alleged submission of claims/
                                                     curity numbers. The OI worked in conjunction
statements and product substitution. The inves-
                                                     with the Social Security Administration (SSA)
tigation revealed evidence to substantiate the
                                                     to cross-reference GPO’s records with SSA’s
allegations and was presented to and accepted
                                                     to determine if any abnormalities existed. To
by the USAO for civil prosecution. The amount
                                                     date, OI has identiﬁed 69 individuals who have
of questioned funds relating to these contracts
                                                     some type of discrepancy with their records.
is approximately $5 million dollars over the last
                                                     Of those identiﬁed, 25 had issues surrounding
three years.
                                                     the social security numbers not matching the
      An investigation opened in a prior report-
                                                     same name; seven had social security num-
ing period involving a contractor over-billing
                                                     bers unable to be veriﬁed; ﬁve had more than
GPO is pending. The contractor, who conducts
                                                     one social security number matched by name




                                                                                                      25
only; and the remainder had various minor is-
sues. Additional investigative efforts are being
undertaken to validate the integrity of the Social
Security numbers used by GPO employees.
     The OI is reviewing the suspension/debarment
program within GPO to determine if better prac-
tices and procedures can be implemented to
maximize the program’s beneﬁts. The review in-
cludes discussions with GPO regional personnel,
the agency debarment ofﬁcial, and the submis-
sion of investigative ﬁndings for agency action.
     As part of an overall security evaluation
of the GPO, OI is in the process of completing
phases two and three of a ﬁve-phase survey of
the agency. The results of each phase will be for-
warded to senior agency management for action.
     As a result of OI’s efforts, the agency already
has realized a savings of $7,389 by reducing pay-
ment in one print job and recovered approxi-
mately $13,000 in two other print jobs.




26
STATISTICAL TABLE - SUMMARY OF INVESTIGATIVE CASE WORKLOAD AS OF MARCH 31, 2004

Workload Analysis:                                                    Number

Beginning Case Workload as of October 1, 2003                           56

Cases Opened (from 38 New Complaints Received)                          19

Cases Closed                                                           <28>

Cases Referred to Agency for Action (No Further OI Action Required)    <28>

Ending Case Workload as of 3/31/04                                      19




STATISTICAL TABLE - OFFICE OF INVESTIGATIONS PRODUCTIVITY SUMMARY

Arrests                                                                 0
Total Cases Presented to USAOs / SAOs                                   2
   Criminal                                                             1
      Criminal Declinations                                             1
      Convictions                                                       0
      Guilty Pleas                                                      0
      Probation (days)                                                  0
      Restitutions                                                      0

   Civil                                                                1

      Civil Declinations                                                0
Amounts Recovered Through Investigative Efforts                       $20,187

Total Agency Cost Savings Through Investigative Efforts               $84,023

Total Amounts Questioned or Under Questioning                         $ 8.02M

Total Administrative Referrals                                          28

Employee Suspensions                                                    0

Employee Terminations                                                   1

Employee Warned/Other Actions                                           0

Other Law Enforcement Agency Referrals                                  0




                                                                                27
ofﬁce of administration and inspections

                                                       tiﬁed the need for GPO to realign its business
                                                       process for the intake of work to conform to
                                                       Executive Branch accounting practices.

                                                       Advice and Assistance
                                                       AI provided advice and assistance to the Chief


T
                                                       Information Ofﬁcer (CIO) concerning the reor-
                                                       ganization of IT services, IT security, and the role
      he Ofﬁce of Administration and Inspections
                                                       of the OIG in the “stand-up” of the Public Key
(AI) provides the Inspector General with an alter-
                                                       Infrastructure project at the GPO.
nate mechanism to traditional audit and inves-
                                                            AI monitored work of the CIO to mitigate
tigative disciplines to assess GPO programs and
                                                       risks in the GPO IT environment that were report-
activities. The Ofﬁce conducts short-term reviews
                                                       ed by the KPMG ﬁnancial statement audit and the
and evaluations that generally focus on issues
                                                       OIG inspection of GPO network vulnerabilities.
which are limited in scope. The Ofﬁce also assists
                                                            AI provided advice and assistance to the Man-
the Inspector General in responding to Congres-
                                                       aging Director of Plant Operations concerning the
sional and management requests for assistance.
                                                       security and redesign of the passport product.
                                                            AI continued efforts to monitor Executive
A. SUMMARY OF INSPECTIONS                              Branch compliance with Title 44. There ap-
ACTIVITY                                               peared to be no commonality of data between
During the current reporting period, AI issued         GPO data and Ofﬁce of Management and Bud-
one report in response to a request of the Joint       get (OMB) data as it concerned monitoring Ex-
Committee on Printing (JCP) and one report in          ecutive Branch Agency spending activity at GPO
response to a request of GPO management. A             versus the Printing and Reproduction budget
summary of AI accomplishments follows:                 approved by OMB.
                                                            AI assisted the Ofﬁce of Audits as liaison to
Reports                                                KPMG for that portion of the Financial State-
In response to a request by the JCP, AI issued a re-   ment Audit pertaining to IT security testing and
port concerning the publication of the National        other assurance services.
Aeronautics and Space Administration Columbia
Accident Investigation Board (CAIB) report print-
ed outside of the GPO. The report highlighted
potential savings of $14,000 to $112,000 that
would have been achieved had the CAIB report
been produced by GPO.
     In response to a request by GPO manage-
ment, AI issued a report concerning persistent
overdue accounts receivable. Millions of dollars
owed to the GPO have been outstanding for an
inordinate amount of time. This inspection iden-




                                                                                                        29
B. INSPECTION ACCOMPLISHMENTS                         not treated the SF-1 as an obligating document
                                                      in their ﬁnancial system, it has little ability to
Columbia Accident Investigation Board                 pay an invoice submitted by the GPO in a timely
Report                                                fashion. Further, agencies may have no ability
AI issued a report in response to an inquiry by the
                                                      to pay if the SF-1 circumvented their budgetary
JCP concerning the publication of the National
                                                      control and procurement systems and it was
Aeronautics and Space Administration Columbia
                                                      later found that funds were not available at the
Accident Investigation Board (CAIB) report. The
                                                      time of the order to GPO.
JCP requested a review to determine whether the
                                                            The inspection concluded that the most
CAIB report was subject to the requirements of
                                                      reliable method to ensure timely payment for
Title 44, and if so, whether the report was com-
                                                      goods and services within the Executive Branch
pleted consistent with these requirements.
                                                      is to require a purchase order. A purchase order
      Our investigation revealed that the CAIB was
                                                      would ensure that funds have been set aside
not exempted from the mandates of Title 44. The
                                                      and obligated on the ﬁnancial records of the
CAIB never requested, and GPO did not grant, a
                                                      ordering agency awaiting an invoice from a
waiver from the Title 44 requirement regarding
                                                      vendor or GPO.
the printing of reports by the CAIB. Due to the
                                                            A broader picture of GPO receivables shows
failure of the CAIB to use GPO for the publica-
                                                      that there are $9.6 million in receivables past due
tion of the report, there was a range of $14,000 to
                                                      at least ninety-days, and of that amount, $6.7 mil-
$112,000 in additional costs to the general public,
                                                      lion has been past-due for more than one year.
as well as compromises to the availability of the
                                                      Continued reliance on the SF-1 may be the sys-
report information to the general public.
                                                      temic cause for these persistent unpaid amounts.
                                                            The OIG is going to recommend that the
Persistent Overdue Accounts Receivable                Chief Financial Ofﬁcer (CFO) begin a process to
AI issued a report concerning persistent over-
                                                      require a purchase order for all intake of work
due accounts receivables related to Executive
                                                      from customer agencies and to collaborate with
Branch Federal Register (FR) publishing activ-
                                                      the OIG in a series of recovery audits to identify
ity. In March 2004 there were approximately
                                                      and recover monies owed to the GPO.
$542,000 in outstanding receivables for FR
work and, of that amount, $185,000 in billings
were for FR publishing not supported by an            C. WORK-IN-PROGRESS
SF-1 (Printing and Binding Requisition to the
                                                      Information Technology
Public Printer) from the publishing agency.
                                                      AI continues to provide advice and assistance to
      The inspection revealed that GPO reliance
                                                      the CIO concerning the reorganization of IT ser-
on the SF-1 as an intake document for bill-
                                                      vices, IT security, and the process of migrating
able purposes and as a reference document
                                                      GPO legacy business systems to contemporary
for invoicing customer agencies was question-
                                                      software and hardware platforms. AI will moni-
able. Some customer agencies have adequate
                                                      tor the CIO’s work in mitigating risks in the GPO
controls in place to capture the SF-1 as an
                                                      IT environment. These risks were reported as
obligating document in their ﬁnancial system,
                                                      ﬁndings with attendant recommendations in the
while others do not. If a customer agency has




30
2003 Financial Statement Audit and the OIG in-            Ofﬁce of Management and Budget (OMB) and
spection report of GPO network vulnerabilities.           the GPO Chief Information Ofﬁcer, AI utilized
     AI is providing compliance audit services            ACL, a data mining software tool, to monitor
and third-party witnessing for the implementa-            agency spending activity through the GPO as
tion of the GPO Public Key Infrastructure (PKI)           contrasted to their appropriation for “Printing
project. The primary objective of this implemen-          and Reproduction” expenses as allocated by
tation is to ensure customers that the informa-           OMB. However, there was insufficient com-
tion made available through GPO ACCESS is of-             monality of data between GPO and OMB to
ﬁcial and authentic and that trust relationships          do this in an automated environment. The OIG
exist between all participants in an electronic           will recommend that the GPO require customer
transaction. GPO’s PKI implementation will pro-           agencies include their OMB agency code on
vide security for and safeguard ofﬁcial Federal           all requests for procured printing and related
Government publications.                                  services. This would enable the OIG to monitor
     AI will continue to provide advice and as-           the $2 billion in the Executive Branch printing
sistance in the 2004 Financial Statement Audit            and reproduction expense appropriations and
activity. The AI acts as liaison and facilitator for IT   report the results to Congress.
security testing and other IT assurance work con-               The issues surrounding the OMB Compact
ducted by the external auditor, KPMG, to support          with GPO will be reviewed in the next report-
their opinion on the GPO’s ﬁnancial statements.           ing period that will merge the compliance issue
                                                          stated above with an analysis of the process be-
Product Security                                          ing developed for Executive Agency procured
AI continues to provide advice and assistance to          printing activity.
the Managing Director of Plant Operations con-
cerning security and other issues in the redesign         Financial Management – Purchase Card
and deployment of the passport product for the            Program
State Department. GPO faces many challenges in            The AI has consulted with the OIG software con-
this program such as: developing a secure IT en-          tractor to put in place a mechanism to monitor
vironment to capture and encrypt data concern-            the purchase card program. The potential for
ing the individual passport book; insertion and           fraudulent, improper, and abusive purchases in
validation of smart card technology; speciﬁcation         a purchase card program should be viewed by
of new security paper content; and, a redesign of         management as a risk of signiﬁcant ﬁnancial
security features imbedded in the printing pro-           loss, possibly resulting in operational inefﬁcien-
cess. Additionally, changes in the manufacturing          cy and impairment of mission readiness. This
process will require a reengineering of the cur-          is particularly true in the Federal Government
rent production methods and supply chain.                 environment where taxpayer dollars are at risk.

Title 44 Compliance and the OMB Compact                   E-Government
The AI attempted to implement a process to                The AI is developing an evaluation process
monitor Executive Branch compliance with                  to monitor the issues with GPO compliance
Title 44 requirements. With the assistance of             with the E-Government Act of 2002. In fulﬁll-




                                                                                                         31
ing GPO’s mission to provide government
information to the public, the agency should
meet the standards of privacy, accessibility, us-
ability, and archiving required by the Act. GPO
Information Dissemination and Information
Technology programs should be compatible
with architectures being adopted by the Chief
Information Ofﬁcer Council and standards be-
ing formulated by The Interagency Committee
on Government information.



D. STATUS OF OPEN RECOMMEN-
DATIONS
Network Vulnerability Testing Recom-
mendations
The CIO has made signiﬁcant progress in miti-
gating or eliminating 34 GPO key vulnerabilities
identiﬁed by the OIG during the last reporting
period. These were the result of testing the GPO
internal network for potential vulnerabilities
and further exploiting them to gain unauthor-
ized and privileged access. The CIO has imple-
mented 28 of the 34 recommendations and the
remaining six are in the design, planning or
development stage.

Financial Statement Audit - KPMG
Recommendations
KPMG issued ten IT ﬁndings in the course of
their 2003 Financial Statement Audit.
     The CIO, in addressing the KPMG open rec-
ommendations, has made signiﬁcant progress. A
restructured GPO Information Security Policy
is near ﬁnal approval. The IT security staff has
been consolidated, a new director appointed, and
necessary training and deployment is underway.
GPO is developing a risk assessment framework
and adopting a Systems Development Life Cycle
that will fulﬁll KPMG’s recommendations.




32
KPMG RECOMMENDATIONS – STATUS REPORT


KPMG NFR    Description                          Status
Number


03-EDP-01   Produce Comprehensive Security       GPO 825.33 document has been developed and is in the
            Plan                                 approval process to address the policy portion of this recom-
                                                 mendation. Action plan for developing detailed procedures
                                                 to fulﬁll the policy requirements is being developed, now that
                                                 the policy document is nearing completion.


03-EDP-02   Develop Policy on Classifying        Risk assessment framework is being developed, using National
            Information Based on Sensitivity     Institute of Standards and Technology guidance as a baseline.
            and Criticality                      An action plan for implementation of the framework is in
                                                 early stages of development, which will include tasks such as
                                                 producing a roll-out plan for GPO, and conducting overview
                                                 training for business areas. GPO 825.33, which is in the ap-
                                                 proval cycle, deﬁnes GPO policy requirements to conduct risk
                                                 assessments.


03-EDP-03   Develop Policy for Periodic          Policy requirements contained in GPO 825.33 document,
            Review of Access Authorization       which is in the approval cycle. On the implementation side,
            and Privileges                       the technology and process deﬁnitions to produce reports
                                                 and have them reviewed by operating areas are in the early
                                                 stages of investigation and discussion, for both mainframe and
                                                 LAN environments.


03-EDP-04   Improve Physical Access Controls     Policy requirements contained in GPO 825.33 document, which
                                                 is in the approval cycle. Visitor logs are planned for near term
                                                 implementation for production server rooms, and a contract
                                                 to enhance the building access cards and control system has
                                                 been awarded. Implementation plan for the enhanced building
                                                 access cards and control system is being developed.


03-EDP-05   Establish GPO-wide SDLC Process      Training accomplished on SDLC and project management
                                                 for certain staff members, including certain departments
                                                 outside IT. Recommendations for next steps on SDLC
                                                 have been produced and are being evaluated with respect
                                                 to implementation. Developing a roll-out plan is a next
                                                 step activity.


03-EDP-06   Revise GPO Instruction 610.8, Pro-   Revisions have been proposed for GPO Instruction 610.8, which
            cedure for Employees Leaving the     are being reviewed and evaluated. The plan is for the revised
            Ofﬁce                                process to go into effect once the Instruction is approved and
                                                 published, along with the associated form being revised.




                                                                                                   33
KPMG RECOMMENDATIONS – STATUS REPORT (CONT.)

 KPMG NFR          Description                          Status
 Number


 03-EDP-07         Develop Disaster Recovery Plan       Plan is being developed. This is a GPO-wide activity, involving
                                                        business areas deﬁning business resumption plans in
                                                        consultation with IT.



 03-EDP-08         Establish Corrective Action Plan     Plan has been developed and corrective actions are in progess
                   to Resolve Previously Reported IT    and being tracked. CIO Monthly Project Status reports track
                   Security Findings                    progress on these corrective actions and provides a forum for
                                                        management review of resolution activity. Progress is being
                                                        made on all items, with some further along than others.



 03-EDP-09         Develop Policy for Separation of     Policy requirement contained in GPO 825.33 document, which
                   Duties                               is in the approval cycle. The risk management framework is
                                                        envisioned to provide the mechanism for areas to document
                                                        compliance with this policy requirement.



 03-EDP-010        Ensure Passwords used on General     Password problems for GL and Probe databases have been
                   Ledger and Probe Databases Com-      corrected. Follow-up vulnerability assessment scan conducted
                   ply with GPO Policies                to verify resolution. These databases will be periodically
                                                        scanned going forward to assess existence of vulnerabilities.
                                                        Procedures to ensure users change passwords periodically for
                                                        these environments are under development.




STATISTICAL TABLE - INSPECTIONS REPORT SUMMARY

 Description                                               Number of Reports                    Costs at Issue


 Reports requested by the Joint Committee on Printing                  1                        $14,000 - $112,000


 Reports requested by GPO management                                   1                           $9.6 Million




             34
U.S. GOVERNMENT PRINTING OFFICE INSPECTOR GENERAL’S ORGANIZATIONAL CHART



                                                    Marc A. Nichols
                                                 INSPECTOR GENERAL

           Tina Jones
        Executive Assistant

                                                   Jackie A. Goff
                                       DEPUTY INSPECTOR GENERAL & COUNSEL




           Glenn Griser                             J. Anthony Ogden                               Ron Koch
    Assistant Inspector General                Assistant Inspector General                Assistant Inspector General
          Ofﬁce of Audits                 Ofﬁce of Administration & Inspections/            Ofﬁce of Investigations
                                                   Legislative Counsel



 Dave Schaub         Joseph Verch          Kevin Kaporch          Andrew Killgore               Jeff McAboy
 Supervisory          Supervisory        Deputy AIG Ofﬁce of     Assistant Inspector      Supervisory Special Agent
   Auditor              Auditor          Admin & Inspections      General Ofﬁce of
                                                                 Policy and Planning


                                                               Vacant
 Tracie Briggs           Vacant                                                        David Kennedy       Sonja Scott
                                                            Chief Admin.
    Auditor              Auditor                                                        Special Agent     Special Agent
                                                              Services




Allyson S. Brown   Patricia Mitchell       Peter La Tora        Cynthia Long-Hill      Hugh Coughlin     Walter Martin IV
     Auditor            Auditor            Lead Inspector          Computer             Special Agent     Special Agent
                                                                   Specialist




            Rod Dahl                                                                                       Lloyd Rawls
           Supervisory                                                                                    Special Agent
             Auditor
            Ofﬁce of the Inspector General
    732 North Capitol St. • Washington, D.C. 20401
Phone: 202.512.0039 • Email: InspectorGeneral@gpo.gov
